APPENDIX 10

MRS-L-001519-20 07/24/2020 Pg 1 of 9 Trans ID: LCV20201299297

Hirsh Singh
Filing as Pro Se
P.O. Box 407 Linwood, NJ 08221
HIRSH SINGH,
Petitioners,

: SUPERIOR COURT OF NEW JERSEY
: MORRIS COUNTY
LAW DIVISION

HONORABLE Ann F. Grossi, in her
official capacity as Morris County
Clerk; MORRIS COUNTY BOARD
OF ELECTIONS and COUNTY
BOARD OF CANVASSERS,

:

DOCKET NO.
CIVIL ACTION
VERIFIED PETITION IN SUPPORT OF
APPLICATION FOR RECOUNT AND
RECHECK IN ALL DISTRICTS OF
MORRIS COUNTY FOR THE
REPUBLICAN PRIMARY ELECTION
FOR THE OFFICE OF UNITED STATES
SENATOR FOR NEW JERSEY

Respondents.

Petitioner, Hirsh Singh ("Singh"), hereafter states:
Petitioner is a candidate for the respective office of United States Senator, in
the State of New Jersey, in the Republican Primary Election held July 7th, 2020 ("Primary
Election").
Petitioner has reason to believe, and does believe, that errors were made in
the counting of the votes from all Districts, its tabulation by each District Board and by the
Morris County Board of Elections/Board of Canvassers, and in declaring the results of the
subject Primary Election.
At all times relevant herein, the respondent, Morris County Board of
Elections and the Morris County Clerk maintain custody and control of all votes, whether

1

MRS-L-001519-20 07/24/2020 Pg 2 of 9 Trans ID: LCV20201299297

mail in or provisional, used in the Primary Election. The Morris County Board of Elections
and the Morris County Clerk have been made a Respondent in this suit because each has
such custody and control of materials necessary to effectuate a Recount and Recheck.
At all times relevant herein, the Respondent, the Morris County Clerk has
certain requirements to perform in recounting and rechecking votes in accordance with the
requirements of N.J.S.A. 19:28-1, et seq., and serves as Clerk to the Morris County Board
of Canvassers per N.J.S.A. 19:6-26.
At all times relevant herein, the Respondent, Morris County Board of
Elections, is the custodian of the mail-in ballot applications, envelopes, mail-in ballots,
emergency ballots, provisional ballots, examination of the rejected mail-in ballots and
provisional ballots, affirmations and envelopes, and other paraphernalia associated with
respect thereto. Furthermore, the Respondent, Morris County Board of Elections is charged
with the duty of conducting the recount and recheck of all mail-in ballots in accordance
with the requirements of the election laws at a time and place established by the Court.
N.J.S.A. 19:28-1 and N.J.S.A. 19:28-2 provides for a recount of the mail-in
ballots upon deposit as the judge shall direct but not exceeding $25.00 for any one district.
The Petitioner, therefore, applies for a recount and recheck of the mail-in ballot
applications, envelopes, mail-in ballots, emergency ballots, provisional ballots,
affirmations and envelopes, and examination of the rejected mail-in ballots and provisional
ballots, and any other paper ballots and electronic cast or paraphernalia use in all Districts
of Morris County.
Petitioners are entitled to a recount and recheck of the mail-in ballot
2

MRS-L-001519-20 07/24/2020 Pg 3 of 9 Trans ID: LCV20201299297

applications, envelopes, mail-in ballots, emergency ballots, provisional ballots,
affirmations and envelopes, and any other paper ballots cast and electronic devices used
pursuant to N.J.S.A. 19:28-1, et seq. and 19:52-6, et seq.
Pursuant to the provisions of N.J.S.A. 19:28-1 (Recounts), and N.J.S.A.
19:52-6 (Recount of Irregular Ballots), the aforesaid Petitioners demand a recheck of all
ballots, irregular ballots, emergency ballots, mail-in ballot applications, envelopes, mail-in
ballots, emergency ballots, provisional ballots, affirmations and envelopes, and any other
paper ballots, hand recount of the mail-in ballots and provisional ballots, and examination
of the rejected mail-in ballots and provisional ballots, for all votes cast within all Districts
of Morris County, in the July 7th Republican Primary Election.
Petitioners further request that, because of the narrow margin of votes
separating Petitioners from the Respondent, and the extra-ordinary nature of this newly
created and primarily Mail-In-Ballot system due to the COVID-19 epidemic, a recount and
recheck will protect the sanctity of the ballot which serves the public interest in the outcome
of the Primary Election, thus both further substantiating the necessity of a recount and
recheck and warranting that the judge prescribed deposit per district fee be waived for the
recount and recheck.
In order to ensure the veracity of the recheck, the Petitioner requests that the
Court require the continued impoundment of the all votes by the Morris County Board of
Elections, their agents, servants or employees and others acting in concert with them and,
except for the purpose of conducting the Recheck, prohibit the movement, interfering,
storing, or otherwise changing the present status quo of all votes used in the Election until
3

MRS-L-001519-20 07/24/2020 Pg 4 of 9 Trans ID: LCV20201299297

such time as the results of the recount and recheck have been certified and until any
challenge to the election has been completed.
11.

In the event the Court does not enjoin the Morris County Board of Elections,

their agents, servants or employees from movement, storing, or otherwise changing the
present status quo of all votes used in the Election, the Petitioner will be immediately and
irreparably harmed as being unable to verify the canvass of votes and ascertain the status
of the number of votes at the close of the subject Primary Election and whether Petitioner
should be declared the successful candidate.
WHEREFORE, the Petitioners seek relief as follows:
In accordance with the statutes in such cases made and provided, that the
Court Order a recounting and rechecking of all ballots, irregular ballots, emergency ballots,
mail-in ballot applications, envelopes, mail-in ballots, emergency ballots, provisional
ballots, affirmations and envelopes, and any other paper ballots, and hand recount of the
mail-in ballots and provisional ballots, and examination of the rejected mail-in ballots and
provisional ballots for the Primary Election in accordance with N.J.S.A. 19:28-1, et seq.
and N.J.S.A. 19:52-6 et seq.
That the parties or their representatives shall now, during and after the
conclusion of the physical recount and recheck be allowed to examine, copy and/or scan
the registry books, voter authorizations, mail-in ballots and mail-in ballot applications,
rejected and late arriving mail-in ballots, envelope flaps, outer envelopes, inner envelopes,
provisional ballots, affirmations, messenger book, office orders, order lists, orders to vote,
challenge lists, challenge sheets, peremptory order lists, District Board returns and

4

MRS-L-001519-20 07/24/2020 Pg 5 of 9 Trans ID: LCV20201299297

canvases, repair records, complaint or inquiry records, irregular and emergency ballots,
and any or all other papers, documents, emails, electronic communications and records
related to the Primary Election, as may be requested by them, under the supervision of the
officials in whose custody those items may be.
That the Respondents shall continue the impoundment of all ballots in any
form, except for the purpose of conducting the Recheck, shall prohibit the movement,
interfering, storing, or otherwise changing the present status quo of all votes used in the
Primary Election until such time as the results of the recount and recheck have been
certified and any challenge to the election has been completed.
That the Court waive the judge prescribed deposit as per N.J.S.A. 19:28-2
per District fee for the hand recount and recheck of the mail-in and provisional ballots.
Other just and equitable relief consistent with this Petition as may be deemed
necessary by the Court.
By: s/
Date: July 24, 2020

5

Hirsh Singh
HIRSH SINGH, PRO. SE.

MRS-L-001519-20 07/24/2020 Pg 6 of 9 Trans ID: LCV20201299297

VERIFICATION
I hereby certify as follows:
I am the Petitioner in the foregoing matter.
I have read the contents of the Petition and incorporate same by reference
and state that the contents herein are true to the best of our knowledge, information and
belief. I am aware that if any of the foregoing statement made by me are willfully false that
I am subject to punishment.

By: s/
Date: July 24, 2020

6

Hirsh Singh
HIRSH SINGH, PRO. SE.

MRS-L-001519-20 07/24/2020 Pg 7 of 9 Trans ID: LCV20201299297

Hirsh Singh
Filing as Pro Se
P.O. Box 407 Linwood, NJ 08221

HIRSH SINGH,
Petitioner,

: SUPERIOR COURT OF NEW JERSEY
: MORRIS COUNTY
LAW DIVISION

v.
HONORABLE Ann F. Grossi, in her
official capacity as MORRIS County
Clerk; MORRIS COUNTY BOARD
OF ELECTIONS and COUNTY
BOARD OF CANVASSERS,

:

DOCKET NO.
CIVIL ACTION
ORDER GRANTING RECOUNT AND
RECHECK

Respondent.

Petitioner, Hirsh Singh ("Singh"), hereafter states:
THIS MATTER having been presented to the Court by Hirsh Singh, the Petitioner,
and the Court having considered the Petitioner's Application for an Order Granting
Recount and Recheck in all Districts of Morris County for the July 7th, 2020 Primary
Election for the Office of United States Senator for New Jersey, pursuant to N.J.S.A. 19:281, et seq. and N.J.S.A. 19:52-6 et seq., and the Court having considered the papers and
arguments made by counsel, if any, and good cause having been shown;

7

MRS-L-001519-20 07/24/2020 Pg 8 of 9 Trans ID: LCV20201299297

IT IS therefore, on this 24th day of July, 2020;
ORDERED as follows:
The Petitioners' application for a Recount and Recheck, as set forth in the
verified petition, of all machines, emergency ballots and irregular ballots, a hand count of
the mail-in ballots and provisional ballots, and examination of the rejected mail-in ballots,
and provisional ballots cast in All districts within the County of Morris July 7th, 2020
Primary Election is hereby granted; and
The recount and recheck is to commence on August 1st, 2020 at 10 a.m. and
continue daily thereafter (Saturdays, Sundays and holidays excepted) until completed,
unless otherwise agreed to by the parties and those officials responsible for the recount and
recheck, all provisional and mail-in ballots in each district shall be done separately; and
The fee per district as required by N.J.S.A 19:52-6 for recheck is hereby
waived as the recheck is in the public interest and no electronic voting machines are being
checked; and
The maximum fee of $25 per district to recount the paper ballots under
N.J.S.A. 19:28-2 is hereby waived as the recount is in the public interest; and
The Morris County Clerk, Morris County Board of Elections and other
officials shall cooperate with the Morris County Board of Elections in the recount and
recheck process; and
The Petitioner shall serve a copy of the Petition and this Order upon the
Respondents named herein, within 5 business days hereof, personally, by email or by
overnight or certified mail, return receipt requested; and

8

MRS-L-001519-20 07/24/2020 Pg 9 of 9 Trans ID: LCV20201299297

7.

The Respondents shall continue the impoundment of the ballots in any form,

except for the purpose of conducting the Recheck, shall prohibit the movement, interfering,
storing, or otherwise changing the present status quo of all votes used in the Primary
Election in all Districts in the County of Morris, until such time as the results of the recount
and recheck have been certified and any challenge to the election has completed.

9

J. S. C

9

APPENDIX 11

MRS L 001757-20 09/09/2020

Pg 1 of 1 Trans ID: LCV20201587051

PREPARED BY THE COURT
SUPERIOR COURT OF NEW JERSEY
LAW DIVISION CIVIL: MORRIS COUNTY
NO.: MRS-L-01757-20
IN RE HIRSCH V. SINGH
CIVIL ACTION
ORDER

THIS MATTER is before the Court following multiple petitions seeking a recount of the
2020 New Jersey Republican Primary Elections being filed by Hirsch V. Singh.
IT APPEARING the following matter relates to a primary election for the United States
Senate, being a statewide election, and as such the petitions already filed by Hirsch V. Singh
should be consolidated as one application to be decided in accordance with Administrative
Directive #27-17 and N.J.S.A. §§19:29-2 -3, and with good cause being shown;
IT IS on this 9th of September, 2020;
HEREBY ORDERED as follows:

1. The previous petitions, seeking a recount of the Republican Primary Election for United
States Senate, filed Hirsch V. Singh shall be consolidated under In Re Hirsch V. Singh, to
be heard in Morris County, under MRS—L-01757-20.

It is further ORDERED that a copy of this Order is to be served on all parties of
interest within 7 (seven) days.

Is/ Stuart A. Minkowitz
Hon. Stuart Minkowitz, A.J.S.C.

APPENDIX 12

MER-L-001556-20 09/02/2020 Pg 1 of 39 Trans ID: LCV20201546837

Hirsh Singh
Filing as Pro Se
P.O. Box 407 Linwood, NJ 08221
9 Wexford Lane Linwood, NJ 08221
(609)335-5289
info@hirshsingh.com

HIRSH SINGH,
Petitioners,

:

SUPERIOR COURT OF NEW JERSEY

LAW DIVISION
DOCKET NO.

HONORABLE PHILIP D. MURPHY,
in his official capacity as Governor of
New Jersey, HONORABLE TAHESHA
WAY, in her official capacity as New
Jersey Secretary of State; John Doe
Respondents.

CIVIL ACTION
VERIFIED PETITION TO CONTEST
THE REPUBLICAN PRIMARY
ELECTION FOR THE OFFICE OF
UNITED STATES SENATOR FOR NEW
JERSEY

:
:

Petitioner, Hirsh Singh ("Singh"), hereafter states:
Petitioner is a candidate for the respective office of United States Senator, in
the State of New Jersey, in the Republican Primary Election held July 7th, 2020 ("Primary
Election").
Factual Background
On March 9, 2020, Governor Murphy declared a public health emergency in New Jersey
related to the COVID-19. Exec. Order No. 103. Since then, Governor Murphy has issued
numerous overreaching executive orders in responding to COVID-19. The primary
election was initially to be held on June 2nd, 2020 but was moved by Governor Murphy to
1

MER-L-001556-20 09/02/2020 Pg 2 of 39 Trans ID: LCV20201546837

July 7th, 2020 using Executive Order 120 ("EO 120"). Also, relevant to the immediate
proceedings is Executive Order 144 ("EO 144"). Therein, Governor Murphy ordered that
the July 7, 2020 primary election was to be conducted primarily via vote-by mail ballots.
With EO 144, Governor Murphy expanded the number of voters eligible to receive voteby-mail ballots, and expanded the time for vote-by mail ballots to be received from 48
hours after the election to one week after the election. EO 144 created an unprecedented
amount of vote-by-mail and provisional ballots being cast in the July 7, 2020 primary
which has subsequently led to massive voter disenfranchisement with over 40,000 ballots
having been Rejected that was so far reported, Democrats receiving Republican Ballots,
Republicans receiving Democrat Ballots, some partisan voters receiving no ballots and an
unfair barrier to vote for unaffiliated voters. There are countless ballots that we are not
aware of at this point in time. This election should be set-aside because it was illegally
created using State Executive Powers where the U.S. Constitution Article 1 Section 4
clearly states "the times the places and manners shall be prescribed in each state by the
legislature" meaning the NJ Assembly and NJ Senate (Arizona State Legislature v Arizona
Independent Redistricting Committee. [2015]) The guidelines to conduct a Federal
Election is vested in the State's Legislature. The US Senate primary election held on July
7th has been illegitimately certified with incomplete and fraudulent results.
Petitioners Findings:
I visited multiple Boards of Elections and contacted commissioners and others involved in
the counting process to attempt to' observe and found a number of irregularities and
concerns starting Primary election day July 7th. On July 9th I visited the Burlington County
2

MER-L-001556-20 09/02/2020 Pg 3 of 39 Trans ID: LCV20201546837

Board of Elections and witnessed a man in an unmarked vehicle without US Postal uniform
attempting to deliver ballots to the Board of Elections. There was no one at the Board of
Elections to receive the ballots as such we walked together to the 3rd floor of that building
to the Burlington County Clerks office to see if they would be able to receive the ballots.
We were told no. These ballots were then loaded back into the gentleman's unmarked
vehicle and he left. I hope these ballots were eventually received, and I would like to note
the right most ballot was stamped July 8th a day after the Primary Election. This picture
was taken at 4:11PM.

3

MER-L-001556-20 09/02/2020 Pg 4 of 39 Trans ID: LCV20201546837

On July 12th we sent an email data request under OPRA to all 21 counties asking pertinent
questions such as:
2:42 +7

.et LTE

2) The total number of vote-by-mail envelopes
processed thus far and sub-totals detailing the
number of:
envelopes/ ballots prepared for counting
(stripped and/or stacked) but not counted;
ballots that have been counted;
envelopes that have been rejected and
not counted;
ballots that have been rejected and not
counted:
envelopes/ballots segregated according to
any other criteria;
I) the number of provisional ballots cast on
Election Day;
the number of provisional ballots, if any,
cast at any other time;
the number of ballots/votes cast under
special provisions for the disabled on Election
Day;
the number of ballots/votes cast under any
other criteria and a description of same;
the current vole totals in the Republican
Primary election for U.S. Senate;
the expected dale, time, and Macedon that
you next plan to process or count vote-bymail envelopes or ballots, as the case may
be;
I) the expected date, time, and location that
you next plan to process or count provisional
ballots, as the case may be;
the expected date, time. and location that
you next plan to process or count ballots cast
under special provisions for the disabled, as
the case may be;
the expected date. lime, and location that
you next plan to process or count any other
ballots.

On July 17th upon learning that some ballots were being counted that were stamped with a
July 8th date in certain counties like while others stamped July 8th were not being counted
and being handled differently in in each county I reached out directly to the Secretary of
State's representative responsible for developing the states protocols for the election and
certifying election results. This was done to no avail as we received no response from the
Secretary of State.

4

MER-L-001556-20 09/02/2020 Pg 5 of 39 Trans ID: LCV20201546837

0 0
la

4emn XV 5 1.1tvn“,.symIll um,
ralmin.gitelmours r, goo .doluolft•wm
....i....-Atatre.rt,

..1.1trIpblesglos Slitn
Date 01 1 ). 10146.08 IV

Mr.Gites,
Please see the email below.
We have grave concerns about the conduct of
the election inducting the preservation and
counting of ballots. Specifically what directives
have been provided to the county clerks? What
are the protocols that have been provided and
who Is respensIble for ensuring that those
protocols are complied with?

Very Respectfully.

Hirsh V. Singh
Repubhcan Candidate for Nommation for the
Untied Slates Senate
Personal Mobilo: 1E09)335.5289
Managers Monne, 971951 5919

I started reaching out to USPS Representatives. I went to multiple Post Offices and met
with multiple Postmaster General's responsible for delivering Ballots to Boards of
Elections — they pointed to an individual who was responsible for all mail-in ballots at
USPS.

We were not able to get in touch with Mr.DAlessio after attempts at calling, emailing, and

5

MER-L-001556-20 09/02/2020 Pg 6 of 39 Trans ID: LCV20201546837

going to his place of business.

We received contradictory information between Union County with our data request and
the certified results by the Secretary of State. Union County provided us a preliminary list
of Rejected Ballots that numbered a total of 2957 rejected ballots with 756 Republican and
Unaffiliated rejected ballots included below. The Secretary of States Office stated Union
County rejected only 2452 ballots which starts a pattern of data that is inconsistent across
the state regarding this election.
-AMENDEDOfficial Primary Election Turnout
July 7, 2020

COUNTY

Total Number of
Persons
Entitled to Vote

Total Number
Democratic
Batlots Cast

Total Number
Republican
Ballets Cast

Total Number of
Ballots Cast

Percent of Etiatde
Voters

Total Number of
Numbee of
Ballots Rejected Election Districts

Atlantic

191,882

30,541

18,853

49,394

26%

555

151

Bergen"

384.895

104.253

38.604

142,857

37%

5,130

561

Burlington

323,839

63,779

33,036

96,815

30%

3,803

365

Camden

369,295

75,626

17,863

93,489

25%

2,709

345

Cape May

72,199

9,639

13,071

22,710

31%

643

127

Cumberland

89,731

13,888

7,899

21,787

24%

557

92

Essex •

335,096

104,863

12,271

117,134

35%

1,959

550

Gloucester

216,376

37.869

19,045

56,914

26%

808

229

Hudson

383,591

74,139

7,378

81,517

21%

6,285

456
116

Hunterdon •

68,708

15,753

16,190

31,943

48%

811

Mercer

245,037

50,425

11,374

61,799

25%

1,089

243

Middlesex

498,247

89,609

22,820

112,429

23%

3,167

615

Monmouth

461,759

60,464

42,803

103,267

22%

3.453

458

Morris

369,658

52,756

46,043

98,799

27%

1,689

396

Ocean

413,396

43,469

58,990

102,459

25%

1.745

413

Passaic

307,863

41,061

17,097

58,158

19%

1,609

284

Salem

41,764

6.264

4,933

11,197

27%

322

45

Somerset

244,095

39,588

21,586

61,174

25%

1,128

265

Sussex

107.798

11,994

18,213

30,207

28%

308

121

Union

353,739

73,973

16,695

90,668

26%

2.452

431

12,892

22,297

27%

623

89

457,,856

1,467,014

26%

40,645

6,352

Warren

81,435
TOTAL

5456,403

9,405
1,009

Boman, Boum we leurderebn mend. do not Include unallibtael vetoes
aquas are amended hasea on additional Inbar:elation nominal by Barrington. Mercer and Union Counties attar the mute We. aerttiedi on August 0, 2020

ridautazaleo

6

MER-L-001556-20 09/02/2020 Pg 7 of 39 Trans ID: LCV20201546837

Only 1 of the 21 counties currently provided us this requested public information on
rejected ballots after multiple attempts to follow up and email. This information should be
provided in full. Per NJSA 19:29-2 Petition filed with Clerk of Superior Court; contents;
verification; bond to incumbent, "When the reception of illegal or the rejection of legal
voters is alleged as a cause of contest, the names of the persons who so voted, or whose
votes were rejected, with the election district where they voted or offered to vote, shall be
set forth in the petition, if known." What we know so far is:
First Name

Last Name

Party
Rep

Ballot Reject Reasons
Certificate Not Signed

LINDA
JUNE ANN

HURLE

DANIEL
ANITA

MALLEN
TEJA

Rep

Signature Does Not Match
Certificate Missing

ALLEN
MARIA
JAMES

BECKER
IMBIM BO

Rep
Rep

Certificate Missing
Signature Does Not Match

ANTOINETT

KOUTOUDIS
SORDILLO

Rep
Rep

Certificate Missing
Ballot Received After Polls Closed

AUSTIN

AMIANO

Rep

Ballot Received After Polls Closed

ANTHONY

AMIANO
AMIANO

Rep
Rep

Ballot Received After Polls Closed
Ballot Received After Polls Closed

QUIROGA

Rep
Rep

Signature Does Not Match
Certificate Missing

KATHLEEN
EMMA

FULLER

GEORGE
ELENA

DEL DUCA
KEEGAN

HEATHER

RICHEL
SPATOLA

ANNE MARIE
SHANE
DAVID

Rep
Rep

Certificate Missing

Rep

Certificate Missing

Rep
Rep
Rep

Signature Does Not Match
Ballot Received After Polls Closed

FRANK

HADDAD
AUGENSTEIN
CAVALLO

CHRISTOPHER
CHRISTINE

DAVIS
DEL SORDO

Rep
Rep

Signature Does Not Match
Certificate Missing

Rep
Rep

Certificate Missing

KRISTINA

DREITLEIN DONEY

OLGA
JONATHAN

HUNCHAR
LABELLA

ALAN
CHRISTOPHER
MICHAEL
BRIDGET

Bearer Exceeded Umit

Rep
Rep

Certificate Missing

Ballot Received After Polls Closed

Ballot Received After Polls Closed

Rep

Ballot Received After Polls Closed

STUART
WALSH

Rep
Rep

Signature Does Not Match

CHIEFA
NEIGEL

Rep
Rep

Certificate Missing
Signature Does Not Match

7

Certificate Missing

M ER-L-001556-20 09/02/2020 Pg 8 of 39 Trans ID: LCV20201546837

JOSEPH
DANA
MICHAEL

PITT
TRUDEAU

Rep
Rep

Ballot Received After Polls Closed
Ballot Received After Polls Closed

ARES

Rep

Ballot Received After Polls Closed

Rep
Rep

Ballot Received After Polls Closed

JESSICA

SMITH
BRIGANTE

FRANK

BRIGANTE

Ballot Received After Polls Closed

JENNY
WILUAM

BRIGANTE
CASSANO

Rep
Rep

GRACE
TIMOTHY

PATRICK

Ballot Received After Polls Closed

Rep

Ballot Received After Polls Closed
Ballot Received After Polls Closed

TANSEY
THEW

Rep
Rep

Ballot Received After Polls Closed
Certificate Missing

JUDITH

PIZZO

MAUREEN

KIELTY

Rep
Rep

Ballot Received After Polls Closed
Certificate Missing

MICHELLE
JOHN JOSEPH

BRINCK LUND

Rep

Ballot Received After Polls Closed

FANNING
AJMERA

Rep
Rep

Signature Does Not Match
Ballot Received After Polls Closed

NORMA LYDIA

LANZA
ZARZECKI
ZARZECKI

Rep
Rep
Rep

Certificate Missing
Certificate Missing
Certificate Missing

JAMES

MOORE

STEPHEN
JOHN

MURETTA
DUBICKI

Rep
Rep
Rep

Certificate Missing
Ballot Received After Polls Closed

STUART
GERTRUDE

LITT
GOFF

Rep

Ballot Received After Polls Closed
Ballot Received After Polls Closed
Other

DIANE
PETER
ANNETTE

ZIMBARDO
ZIMBARDO

Rep
Rep

Ballot Received After Polls Closed
Ballot Received After Polls Closed

MENZORIO

SHARON
CARA
STEVEN

LAWSON
HUND

Rep
Rep
Rep

Certificate Missing
Certificate Missing

NEFTAUS
ANETTA

MENDEZ
BURDZY

CRISTINA

SABATES
HUND

ASHISH
ROBERT
FRANK

CAMERON

HUND

Rep

Rep
Rep
Rep
Rep
Rep
Rep

RITA

GRESHKO

JAE KON
JONATHAN

LEE
DUFFY

Rep

BARBARA ANN
STEPHEN

WHITE
STEINBERG

Rep
Rep

ELVERA LOUISE
VELMAR

CERRA
VASQUEZ

Rep

JAMES

BERNASKY

VICTOR
ALESSAN DR

DE MARZO
PEZZELLA

Rep

Rep
Rep

Certificate Missing
Certificate Missing
Ballot Not Enclosed
Signature Does Not Match
Ballot Received After Polls Closed
Certificate Missing
Ballot Received After Polls Closed
Ballot Received After Polls Closed
Ballot Received After Polls Closed
Certificate Not Signed
Ballot Not Enclosed
Certificate Not Signed
Ballot Received After Polls Closed

Rep

Certificate Missing
Certificate Missing

Rep

Signature Does Not Match

8

MER-L-001556-20 09/02/2020 Pg 9 of 39 Trans ID: LCV20201546837

PATRICIA
JOSEPH

MARTINELLI
BRYSON

Rep

Other

Rep

GEORGE
MARGARET

MARTINS
HERZER

Rep

Ballot Received After Polls Closed
Certificate Missing

Rep

Other

DEBRA

PHIPPS

Rep

Certificate Missing

MARJORIE
MARTIN

SCHULTZ
PETTESCH

Rep

Certificate Not Signed

LAWRENCE
RUBEN

FLEMING
DELGADO

Rep
Rep

Certificate Missing
Ballot Received After Polls Closed

Rep

MARY

DELANO

Rep

Signature Does Not Match
Ballot Not Enclosed

KEVIN
YEVGENIYA

TROTTER
GOTLIBOYM

Rep

ROBERT
JOSEPH

RIAL
BENITICH

SHARON

CONLEY

RONALD
ROBERTO

GALEN
DE NOTARISTEFANI

JOHN

ROBERTS
KEMPLE

WILUAM
CAREY

KRAUSE

Rep
Rep
Rep
Rep
Rep
Rep
Rep
Rep
Rep

Ballot Received After Polls Closed
Certificate Missing
Ballot Received After Polls Closed
Ballot Received After Polls Closed
Ballot Received After Polls Closed
Certificate Missing
Signature Does Not Match
Certificate Missing
Signature Does Not Match
Ballot Received After Polls Closed
Signature Does Not Match

ZACHERY
ADRIENNE

BINKO
PETRINO

Rep

CHARLES

MADDERA

Rep

MARJAN

CURANOVIC

Rep

ADRIENNE

TODD
COLLADO
REYES

Rep
Rep

Ballot Received After Polls Closed
Ballot Not Enclosed
Signature Does Not Match

Rep
Rep
Rep

Signature Does Not Match
Ballot Not Enclosed
Certificate Missing

Rep
Rep

Certificate Missing
Certificate Missing

Rep

Ballot Received After Polls Closed
Certificate Missing

AMAURYS
LOURDES

Rep

Signature Does Not Match
Ballot Received After Polls Closed

UAM
MAUNDA
SHAWN

BURKE
GARCIA

CONSTANTINE
SAMUEL

BONDARENKO
WAN-SANCHEZ

RAAFT
GONZALO

YOUSEF
MERLO

Rep
Rep

JOHN

HARPER

MAURIUO
GERALD

LODOS

Rep
Rep

Ballot Received After Polls Closed
Certificate Missing

SMITH
MORA
MERSCH

Rep
Rep

Certificate Missing

VERA
TERESA

Rep

WILLIAM

VALVERDE
OREJUELA

Rep
Rep

Certificate Missing
Certificate Missing
Ballot Received After Polls Closed

MORGADO

Rep
Rep

DANIEL
ILEANA
USSETTE

KELLY

VARGAS

9

Certificate Missing

Ballot Received After Polls Closed

Other
Certificate Missing

MER-L-001556-20 09/02/2020 Pg 10 of 39 Trans ID: LCV20201546837

GERMAN
HERNAN

VILLALOBOS
QUISPE CONDOR!

Rep
Rep

Signature Does Not Match

JULIETTE
DANIELLE

VILLARREAL VELEZ
DALLEY

Rep

Certificate Not Signed

Rep

Ballot Not Enclosed

RAFAEL

BONILLA

LOURDES

GONZALEZ

Rep
Rep

Ballot Received After Polls Closed
Other

Ballot Received After Polls Closed

RICARDO

ALBERTO

Rep

Signature Does Not Match

ANTONIO
MARLON
LUIS

DIAZ
DIAZ CABRALES

Rep
Rep

Ballot Received After Polls Closed
Ballot Received After Polls Closed

ESTRADA

JOSE

EXPOSIT°

Rep
Rep

Certificate Missing
Certificate Missing

MICHAEL

BORICH

Rep

Ballot Received After Polls Closed

JENNIFER
JOHN

LYNCH

Rep
Rep

Certificate Missing

MARY BETH

NIEDZWIECKI
GIBSON
SEGAL

Rep
Rep
Rep

Ballot Received After Polls Closed
Ballot Received After Polls Closed
Ballot Received After Polls Closed

SEGAL
SEGAL
BENNETT

Rep
Rep

Ballot Received After Polls Closed
Ballot Received After Polls Closed

Rep
Rep

Certificate Missing
Certificate Missing

Rep

Ballot Received After Polls Closed

Rep
Rep

Ballot Received After Polls Closed
Ballot Received After Polls Closed

Rep
Rep

Ballot Received After Polls Closed
Ballot Received After Polls Closed

Rep

Ballot Received After Polls Closed
Ballot Received After Polls Closed
Signature Does Not Match

JOHN
ALEXANDER
ALLA
MOISEY
RYAN
JOHN
ANNA
NICOLE
JENNIFER

MARQUARDT

MC CORMACK
SYSKA
KISIELEWSKA
HOFMANN

Ballot Received After Polls Closed

CHRISTOPHER

KALIS
KALIS

MICHAEL
KEVIN

DIFABIO
MC DONNELL

DAVID
JANICE
ROBERT

DOUGERT
TUPPER

Rep
Rep

BACKOF

Rep

RAYMOND
JOHN

DE LEON
BEYER

Rep
Rep

UNDALISA
ANDRE
MARLYS

RUTHERFORD
HANNIBAL

Rep
Rep

Ballot Received After Polls Closed
Certificate Missing

PEREZ RUZ

Rep

Ballot Received After Polls Closed

HEATHER

CARRIERO
HERNANDEZ
ARANGO

Rep

Ballot Received After Polls Closed

Rep

HERNANDEZ
SINGE

Rep
Rep

Ballot Received After Polls Closed
Ballot Received After Polls Closed

DOV

BROWN
BROWN

Rep
Rep

Ballot Received After Polls Closed
Ballot Received After Polls Closed

BRUCE

ASCHER

Rep

Ballot Received After Polls Closed

YEFRY
DIANA
HERBERT
JANET

10

Ballot Received After Polls Closed
Ballot Received After Polls Closed
Ballot Received After Polls Closed

Ballot Received After Polls Closed

MER-L-001556-20 09/02/2020 Pg 11 of 39 Trans ID: LCV20201546837

PETER

JASTRZEBSKI
LO FORTE

Rep
Rep

Voter Registration ID Missing

RICHARD
SUSANNA

SHEVARDNADZE

Rep

ELIZABETH
VICTORIA

Rep
Rep

Ballot Not Enclosed
Signature Does Not Match

EDWARD

APARICIO
DEVLIN
WESTERVELT

ROBERT
MARISSA

SMALL
SCALZO

ANTONIO
CARA

MASULLO
SCALZO

CAROL ANN

SCALZO
PIZZI

PAULINE
DENNIS
KATHRYN
STEFANO
DAVID
HYU JA
JORDAN
VINCENT
MICHELLE
JERZY

DOS SANTOS
MORIELLO
MORIELLO

Other

Certificate Not Signed

Rep
Rep

Certificate Not Signed

Rep

Ballot Received After Polls Closed
Certificate Not Signed

Rep

Certificate Missing

Rep
Rep
Rep

Ballot Received After Polls Closed
Certificate Missing

Rep
Rep

Ballot Received After Polls Closed
Other

Ballot Received After Polls Closed

Rep

Other

ROGERS
KIM
RAGLAND

Rep
Rep

Ballot Received After Polls Closed
Certificate Missing

Rep

VIVES
NUNEZ

Rep
Rep
Rep

Ballot Received After Polls Closed
Certificate Missing
Certificate Missing

BONIECKI

Ballot Received After Polls Closed

KIDDY
FERNANDO

MARIA
MACRI

Rep

Certificate Missing

Rep

Certificate Missing

ALEX
GYUNG

JONES
KIM

Rep

Ballot Received After Polls Closed

Rep

Certificate Missing

LINDA

CHANDLER
SEMENYUK

Rep
Rep

Ballot Received After Polls Closed
Ballot Received After Polls Closed

WIWAMS
LA MORTE

Rep
Rep
Rep

Certificate Missing
Signature Does Not Match

Rep
Rep

Ballot Received After Polls Closed
Ballot Received After Polls Closed
Certificate Missing

LUZ
VAUGHN
JOSEPH
JEFFREY
MICHAEL

DIGREGORIO

RAYMOND
SOLOMON
REBECCA

WEGRZYNEK
OKONIE DAVIES

Rep

GORDIN
PELKA

Rep
Rep

Ballot Received After Polls Closed

PACIFICO

Rep

FRANCES
PATRICIA

GAGUO
SALVATO

Rep
Rep

Signature Does Not Match
Certificate Missing

ROBIN
ROBERT

MASON
MUNCH

Rep
Rep

SONIA
RONALD

NEWMAN

Signature Does Not Match

Ballot Received After Polls Closed

Ballot Not Enclosed
Ballot Received After Polls Closed
Signature Does Not Match
Party Privilege after the Primary
Election

WENDY

WISZ

Rep

CHRISTOPHER

D ORSI

Rep

Ballot Received After Polls Closed

HENRY

KNAZ

Rep

Certificate Missing

11

MER-L-001556-20 09/02/2020 Pg 12 of 39 Trans ID: LCV20201546837

JULIA

KNAZ

ETHEL

WARD

LUCILLE
LINDA
GERARD

Rep
Rep

Certificate Missing
Certificate Missing

WILLIS
NEWCOMER
PARES

Rep

Other
Ballot Not Enclosed

Rep
Rep

KATHLEEN

SNYDER

WILUAM
JOHN
RAYMOND

MC NAMARA

JOHN
GRACE

BITTNER
0 BRIEN

RICHARD
ROBERT

MORGAN

Rep
Rep

Rep
Rep

Other
Ballot Received After Polls
Closed,Certificate Missing
Ballot Not Enclosed
Ballot Received After Polls Closed

Rep

Ballot Received After Polls Closed
Ballot Received After Polls Closed

BOORUJY
DETIG

Rep
Rep

Certificate Not Signed

WILLIAM

SCHMITZ

ALLAN
HANAA

WADSWORTH
DANIEL

Rep
Rep

Ballot Received After Polls Closed
Ballot Received After Polls Closed

Rep

JANET
SARAH
MARY
ANTHONY

SULLIVAN
AMBROSE ROMAN
MEDINA

Rep
Rep
Rep

Ballot Received After Polls Closed
Certificate Not Signed

Rep

COREY

PAIK
PAIK

Ballot Received After Polls Closed
Signature Does Not Match
Certificate Missing

Rep

Certificate Missing

RYAN

PAIK

Rep

CAROL

TUNNEY

Rep

Certificate Missing
Ballot Received After Polls Closed

JAMES

MOONEY

Rep

Ballot Received After Polls Closed

SHIRLEY
CAROLYN

MANGIN
GUGUANDOLO

Rep

Certificate Missing

Rep

Ballot Received After Polls Closed

ROBERT
MARY

DAVIES

Rep
Rep

Signature Does Not Match
Other

NAUN

PATEL
COLON
BRADSHAW

Rep
Rep
Rep

Ballot Received After Polls Closed
Ballot Received After Polls Closed
Certificate Missing

LILLIAN

THUNDER

MARGARET
DOROTHEA

DI DONATO

Rep
Rep

Certificate Missing
Ballot Not Enclosed

DOBOS

Rep

MICHAEL
MICHAEL

DOBOS
DOBOS

Rep
Rep

Ballot Received After Polls Closed
Ballot Received After Polls Closed

ROSE

STILES
SZYSZKIEWICZ

Rep
Rep

Ballot Not Enclosed
Ballot Received After Polls Closed

WOOD

CHARLES
WALTER

ANTHONY
CAROLE

Ballot Received After Polls Closed

Ballot Received After Polls Closed

SZYSZKIEWICZ

Rep

Ballot Received After Polls Closed

PETER

TAK

Rep

Ballot Received After Polls Closed

PETER

CRISITELLO

Rep

Ballot Received After Polls Closed

STUART
MARY

SANTIAGO
NOWAK STURKIE

Rep
Rep

Certificate Missing

,

12

Ballot Received After Polls Closed

ME R-L-001556-20 09/02/2020 Pg 13 of 39 Trans ID: LCV20201546837

ROBERT
P

PERLMAN
ADDEO

Rep
Rep

Certificate Missing

DOROTHY

CHORAZAK
LEONARD

Rep
Rep

Ballot Received After Polls Closed
Signature Does Not Match

JAMES
PIERRE

LEGACY
PONZIO
AMILCAR

Rep
Rep

Certificate Missing
Signature Does Not Match

Rep

Certificate Not Signed

LYNNE
ANN

EMME
BIRMINGHAM

Rep
Rep

Ballot Received After Polls Closed
Certificate Missing

Rep
Rep

Certificate Missing
Certificate Missing

DEWEY
JOHANNA

Ballot Received After Polls Closed

WILUAM

BIRMINGHAM

JACOB
JENNIFER

MAGIERA
MAKAR

Rep

Certificate Missing

EVANGELIN
LUNELL

GONZALES
GONZALES

Rep
Rep

Certificate Missing
Certificate Missing

JEFFREY
JESUS
KELLY

SCHAEFER
SON
WILLIAMS

Rep
Rep

Ballot Received After Polls Closed
Certificate Missing

Rep

JOSEPHINE

Rep
Rep
Rep

Certificate Missing
Certificate Missing

PHILLIP
JEANNETTE

MACCHIA
LEONE
DE SENA

RONALD
EVA

FERGUSON
CAMPESI

Rep

DOUGLAS
WILUAM

HAMBOR

Rep

HOOD

Rep

Ballot Received After Polls Closed
Signature Does Not Match

BERNARD

SCARPA
PICARD

Rep
Rep

Certificate Missing
Ballot Received After Polls Closed

BECKER
KELLY
PIROLOZZI

Rep

Certificate Missing

Rep
Rep
Rep

Ballot Received After Polls Closed
Signature Does Not Match
Certificate Missing

Rep
Rep

Ballot Received After Polls Closed
Ballot Not Enclosed

Rep
Rep

Signature Does Not Match
Other

Rep

Ballot Received After Polls Closed
Ballot Received After Polls Closed

WILUAM
MARK
BRIAN
MARY
VINCENT
VICTORIA
VALERIE

RIENZO
LAMELA

Rep

Certificate Missing
Certificate Missing
Ballot Received After Polls Closed
Certificate Missing

GABRIELLA

KLIMAS
MARINO

STEPHANIE
KRISTEN

CARNEY
KOEDERITZ

LAUREN

KOEDERITZ

GARRETT

DANIELS

Rep
Rep

MARC
ELIZABETH

KLURMAN
GALLO

Rep
Rep

One Envelope Unsealed
Moved Out of County

Ballot Received After Polls Closed

BARRY

BROWN

Rep

ALAN
KENNETH

MC MAHON
GIACOBBE

Rep

Moved Out of County
Ballot Not Enclosed

Rep

Ballot Received After Polls Closed

RACHEL

MANTLE-LEVY

Rep

Ballot Received After Polls Closed

13

MER-L-001556-20 09/02/2020 Pg 14 of 39 Trans ID: LCV20201546837

DANIEL

RICHARDSON

KRISTY

RICHARDSON

Rep
Rep

Ballot Received After Polls Closed
Ballot Received After Polls Closed

RICHARD

LEVY

Rep

SUSAN
MICHAEL

BRADLEY
SCLAFANI

Rep
Rep

Ballot Received After Polls Closed
Certificate Missing
Signature Does Not Match

Rep
Rep

Ballot Received After Polls Closed
Signature Does Not Match

NEIL

CUNNINGHAM

ANTHONY
NOAH

SANTUCCI
LEVENSON

Rep

Ballot Received After Polls Closed

HAROLD
ASHLEY

BAYAR
KARPF

Rep
Rep

Certificate Missing
Signature Does Not Match

KATHLEEN ,

VECCHIA

ROBERT

BALCHUNAS

Rep
Rep

Certificate Missing
Certificate Missing

SANDRA

SIMONOVICH

BRANDON
ROBERT

FONTANES
ENDRESS

Rep
Rep

Certificate Missing
Ballot Received After Polls Closed

FRANK
ZLOTSKY
DI COMO

Rep
Rep
Rep
Rep

Certificate Missing

SCHAIL
NONNA
ROSARIA
CATALDO

DI COMO
PATEL

Rep

Certificate Missing
Certificate Missing

SAILESH
JANINE

Certificate Not Signed
Certificate Missing
Certificate Missing

CADET

Rep
Rep

STANLEY

CLARK

Rep

Certificate Missing
Party Privilege after the Primary
Election

MATTHEW

SORDIU.

ARMANDO
JOHN

SALVADORE
RICHARDS

Rep
Rep

Signature Does Not Match
Signature Does Not Match

NATHAN

MANGIRIS

KONSTANTI
YUUYA
MICHAEL

ZALAVSKIY

PETA
MARIA
DAVID
PATRICIA
DORA

ZALAVSKIY
GRAZIANO
SIEGAL
CERRACCHIO

Rep
Rep
Rep
Rep
Rep
Rep
Rep

Ballot Received After Polls Closed
Signature Does Not Match
Ballot Received After Polls Closed
Ballot Received After Polls Closed
Certificate Missing
Certificate Missing
Ballot Not Enclosed
Ballot Received After Polls Closed

GREIG
MEH IS

Rep
Rep

Moved Out of County

PAGANO

Rep
Rep

Certificate Missing
Ballot Received After Polls Closed

Rep
Rep

Certificate Not Signed
Ballot Received After Polls Closed

Rep
Rep

Certificate Missing

DAWN

W1RZBICKI

JEFFREY

HERRING

CASSANDRE
FLOYD

BURKE
DONAHUE

MICHAEL
ANNE

GAMBRO
BURKE

PAUL

MURDOCK

CAMILLE

CONDE

Rep
Rep

JOHN

KENNEY

Rep

Rep

14

Ballot Not Enclosed
Ballot Received After Polls Closed
Signature Does Not Match
Certificate Missing
Ballot Received After Polls Closed

ME R-L-001556-20 09/02/2020 Pg 15 of 39 Trans ID: LCV20201546837

GEORGE
TREMAIN

LIANG

Rep

Ballot Received After Polls Closed

STANLEY

Ballot Received After Polls Closed

MARK
.
DOUGLAS

LASHUTKA
WITKOWSKI

Rep
Rep
Rep

HERBERT

LARSEN
PHELAN

Rep

Ballot Received After Polls Closed
Ballot Received After Polls Closed

Rep

Ballot Received After Polls Closed

MAENPAA

Rep

HUONG GIANG
MICHAEL

VO
MARTINS

Rep
Rep

Signature Does Not Match
Ballot Received After Polls Closed

BENJAMIN

GOLDIN
LARSEN

Rep

Ballot Received After Polls Closed
Certificate Missing

Rep

Ballot Received After Polls Closed

KWESEIAIT

Rep

Ballot Received After Polls Closed

JENNIFER
JULIE

GIUSTO
SANDOR

Rep

Ballot Received After Polls Closed
Certificate Missing

JOSEPH
BARBARA
NEIL

LASARACINO
ADY
NEWSHAM

JAMES

BIRLE

EMILY
ROBERT

WANTZ

SAMUEL
JUDITH LEE

SUSARCHICK
BIRLE

ANTHONY

KAREN
SEAN

KRISTA
EDWARD

MAXWELL

Rep
Rep
Rep
Rep
Rep
Rep
Rep
Rep

Ballot Received After Polls Closed

Ballot Received After Polls Closed
Certificate Missing
Signature Does Not Match
Ballot Received After Polls Closed
Ballot Not Enclosed,Certificate Not
Signed
Ballot Received After Polls Closed
Certificate Missing

Rep

Ballot Received After Polls Closed

WILLIAMSON

Rep

VINCENT

MISUKONIS

JARETT
MARK

MAKARA
BILLICH

Rep
Rep

Ballot Received After Polls Closed
Party Privilege after the Primary
Election
Certificate Missing

Rep

Ballot Received After Polls Closed

PATRICIA

MANNO
DASHKIN
CASAS

Rep
Rep

Ballot Received After Polls Closed

Rep
Rep
Rep

Signature Does Not Match
Certificate Missing

Rep
Rep

Ballot Received After Polls Closed
Ballot Received After Polls Closed
Signature Does Not Match
Certificate Not Signed

GREG
RICARDO
JAMES
JOVENAL
TUAN

TRAN

LINDA
FELIX

RUSSO
REVUELTA

Rep

GABRIEL

ROJAS
CANDITO

Rep
Rep

BZDEL

Rep

MARGARET
FRANK

GAZZO

Rep

MARTINEW

Rep

Signature Does Not Match
Ballot Received After Polls Closed
Other

MARIA

Rep

Voter Registration ID Missing

AFONSO

KOWALSKI
RIBEIRO

FERNANDO

ALVARO

Rep
Rep

Certificate Missing
Certificate Not Signed

PETER MICHAEL
VOLODYA

MONTICELLO

Ballot Received After Polls Closed

PANGANDOYON

15

Signature Does Not Match

Certificate Missing

MER-L-001556-20 09/02/2020 Pg 16 of 39 Trans ID: LCV20201546837

JEUDY
MARIA

PIERRE
NACION

Rep

EUGENE

KUZIW
KUZIW

Rep
Rep

Ballot Received After Polls Closed

YO0
YO0

Rep

Certificate Missing
Certificate Missing

MARK
SOOK
SYUNG
MARY ANN
ROSAURA

ASADORIAN
TROCHE

CAROLE

CASTLE

Rep

Rep
Rep

Ballot Received After Polls Closed
Certificate Missing
Ballot Received After Polls Closed

Ballot Not Enclosed

Rep
Rep

Signature Does Not Matti►
Certificate Not Signed
Ballot Received After Polls Closed
Ballot Received After Polls Closed

LOUISE

LEVY

JAY
ALBERT

SCHUSTER
RIMONDI

Rep
Rep
Rep

SCOTT
CHESTER

WEARLEY
MAZ

Rep
Rep

JOHN
KIRSTEN
ELLEN
JOAN

GAMBRI NO

Rep
Rep
Rep

Ballot Received After Polls Closed
Signature Does Not Match

Rep
Rep

Ballot Received After Polls Closed
Other
Signature Does Not Match
Ballot Received After Polls Closed

JOHN

CAUGHEY
MANOS
PEIFFER
WALSH
FINN

Ballot Received After Polls Closed
Party Privilege after the Primary
Election
Ballot Received After Polls Closed

Ballot Received After Polls Closed

CONOR
JEFFREY

PATE

Rep
Rep

JAC,QUEUNE

DELANEY CASH

Rep

Ballot Received After Polls Closed

THOMAS

LEZYNSKI

Rep

FEINGOLD

Rep
Rep

Certificate Missing
Ballot Received After Polls Closed

DANIEL
KARA
MICHAEL
KARL

BARNETT
CASH

Ballot Received After Polls Closed

Rep
Rep

Certificate Missing

JESTER
KALIS
BONNER

Rep
Rep

Certificate Missing
Ballot Received After Polls Closed

Rep

BRADFORD
JENNIE

BONNER

Ballot Received After Polls Closed
Ballot Received After Polls Closed

BOREALO

Rep
Rep

Certificate Not Signed

JOHN
RANDOLPH
JENNIFER

MULKEEN
WOJCIK

Rep
Rep

Ballot Received After Polls Closed
Ballot Received After Polls Closed

CHRISTIAN

STEVEN

CHRISTIAN
SABATO

Rep
Rep

Ballot Received After Polls Closed
Ballot Received After Polls Closed

Rep

Ballot Received After Polls Closed
Ballot Received After Polls Closed
Certificate Missing

BRUCE
CHARLES
ALEXANDRA

THOMAS
PETER

GERCKENS

Ballot Received After Polls Closed

FRANK

DEMERS
GIANNONE

Rep
Rep

SERGEY

AVANESOV

Rep

BARBARA
ROBERT

OTTOSON
OTTOSON

Rep

Signature Does Not Match
Ballot Received After Polls Closed

Rep

Ballot Received After Polls Closed

CRAIG

MARTIN

Rep

Ballot Received After Polls Closed

16

ME R-L-001556-20 09/02/2020 Pg 17 of 39 Trans ID: LCV20201546837

SHARON

MARTIN

DAVID

MARTIN

YVONNE

PADULA

JOEL
ANNA

,

KATZ
CHECCHIO

Rep
Rep

Ballot Received After Polls Closed

Rep
Rep

Certificate Missing

Rep

Certificate Missing
Certificate Not Signed

EFTHYMIOS
WILUAM

FRANTZESKAKIS
HILDEBRANDT

Rep
Rep

MARIE

DOOLEY

SUSAN
ALEXANDER
MICAH

ALACCHI
ZUCKER

Rep
Rep
Una

Ballot Received After Polls Closed
Ballot Not Enclosed

Certificate Missing
Certificate Missing
Signature Does Not Match
Signature Does Not Match
Ballot Received After Polls Closed

CONNOLLY
COUGHLIN

Una

LYNDA

LEE

Una

MARISSA
ROSARIO

STEINBERG
PARISI

Una
Una

CAROLYN
COREY
LAURA

DI FABIO

Una

MCCARTHY
MONDI

Una
Una

JULIANNE
SEOHYUN

CONFORTI
KIM

Una
Una

RUTH

OCHOA
ZERELLA

Una
Una

Ballot Received After Polls Closed
Certificate Missing

JAMES EDWARD

EDWARD

Una

Ballot Received After Polls Closed
Party Privilege after the Primary
Election
Ballot Received After Polls Closed
Signature Does Not Match
Party Privilege after the Primary
Election
Ballot Received After Polls Closed
Ballot Received After Polls Closed
Party Privilege after the Primary
Election
Ballot Received After Polls Closed

DEBRA

FIORENZA

Una

Ballot Received After Polls Closed

CHRISTOPHER

ESPERON

Una

Ballot Received After Polls Closed

ANGELO
GAVIN

SORBARA

Una

Ballot Received After Polls Closed

Una

Ballot Received After Polls Closed

SAMANTHA

SLYMAN
HAYDEN

Una

Ballot Received After Polls Closed

MARIA
RUSSELL
CRAIG

RUTANO
RUTANO
MARTIN

Una
Una
Una

DEVAN

ANDRE
PARK

Una
Una

PIATKOWSKI
PIATKOWSKI

Una
Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed

BAKER

Una
Una
Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed

JENNIFER

LEE
COSTELLO

PAUL
MARIE

DOWD
LEICHT

Una
Una

DMITRIY

ABRACMOU

Una

JENNIFER
CHRISTINE
KAYLA
PATRICIA
NAOMI

17

Ballot Received After Polls Closed
Ballot Received After Polls Closed
Ballot Received After Polls Closed
Ballot Received After Polls Closed
Ballot Received After Polls Closed

Ballot Received After Polls Closed
Party Privilege after the Primary
Election
Ballot Received After Polls Closed
Ballot Received After Polls Closed

MER-L-001556-20 09/02/2020 Pg 18 of 39 Trans ID: LCV20201546837

SUHANOVA
MORAES

Una

Ballot Received After Polls Closed

IAN

Una

ZACHARY
FRANCIS

POWER
KROV

Una

Certificate Missing
Ballot Received After Polls Closed

SRINIVASA

GOVINDARAJAN
SIEHL

OLGA

Una
Una

Signature Does Not Match

Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed

BELL
MENSCH

Una
Una
Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed
Ballot Received After Polls Closed

THOMAS
MATTHEW

FURER
PERICONE

Una
Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed

CARRIE

GAFFNEY

Una

Ballot Received After Polls Closed

ANTHONY.

PAOLILLO

Una

Ballot Received After Polls Closed

ASHLEY
WILLIAMS

HUSSEY
IGLESIAS
WILSON

Una

Signature Does Not Match

Una
Una
Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed
Signature Does Not Match

Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed

USA
KEVIN

VOSSELER

REBECCA
DEUA

ARRION
JUAN
KAYLA
MARIA

BU ENO-GUERRA •
GONZALEZ
GUERRA

LETICIA

ANTUNEZ

Una
Una

ALOIMA
BARBARA

ALARCON ARIAS
MALASPINA

Una
Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed
Ballot Received After Polls Closed

VANESSA

GONZALEZ

OLGUER

PAREDES
BARRERA

Una
Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed

Una
Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed

GUERRA-PEREZ
GARCIA
ARIAS

Una

Ballot Received After Polls Closed

Una
Una

Ballot Received After Polls Closed
Certificate Missing

HAIL
CHANA
ELSI

ARRONIS
PREIL

Una
Una

Certificate Missing
Ballot Received After Polls Closed

TORRES

Una

Ballot Received After Polls Closed

BENEDICT

WAIHARO
PRADO

Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed

MARIA
CANDELARIO
ROSMERY
JOSIE
STEVEN

LEWIS
HECTOR
GREGORY
BARBARA

VARGAS

TRONCOSO
KINZEL

Una
Una
Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed

PAKRUL
RIBADENEIRA

Una
Una

Ballot Received After Polls Closed

RIVERA COLON

Una

Certificate Not Signed

CARMEN
OLGA

GAVILANES
CHECO

Una
Una

Signature Does Not Match
Ballot Received After Polls Closed

RAMON
STANLEY

CHECO
LORLORNYO

Una
Una

Ballot Received After Polls Closed
Certificate Missing

ELIZABETH
KEYSLA

18

Ballot Received After Polls Closed

MER-L-001556-20 09/02/2020 Pg 19 of 39 Trans ID: LCV20201546837

TIFFANY

STURGIS

Una

SASHA
VINCENT

PEREZ
PEREZ

Una

Ballot Received After Polls Closed
Certificate Missing

Una

Ballot Received After Polls Closed

CASANDRA

ANDERSON

LYNN
TANESHA

GREENLEE
ROBINSON

Una
Una

Ballot Received After Polls Closed
Certificate Not Signed

LEIRY
JIMMIE
MAYRA

PUELLO
HOLDER

Una
Una

Ballot Received After Polls Closed
Certificate Not Signed
Ballot Received After Polls Closed

MARDIN
AUSTON

CASTILLO-ESCOBAR
DAVIS

Una
Una
Una

ELSA
GEORGINA

HINOJOSA

Una
Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed

CASTILLO

Una

MARILOU
JEANNINE

HODIL
ELDRIDGE

Una
Una

Certificate Not Signed
Ballot Received After Polls Closed

CLARENCE
ANA

WASHINGTON
LOPES
RIVAS SANTOS

Una
Una
Una

MUNOZ

Una

MERIDA
RHYNDY

MORENO
JOSEPH

Una
Una

OSCAR
JOSE

VELASQUEZ
VANEGAS

Una
Una

Other

BRIAN
MARILENA

PACCELI
TORRES

Una
Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed

LEE

MOSKO

Una

Ballot Received After Polls Closed

ALANNA
CHRISTINA
PATRICIA

SIMPSON
TEMPIO

Una

Signature Does Not Match

Una
Una
Una

Ballot Received After Polls Closed

ELSIS
LEPKOSKI

Ballot Received After Polls Closed
Ballot Received After Polls Closed

ALEXANDER
ALEXANDER

STEVEN
STEPHANIE

TIXI QUEVEDO

TEMPIO

Una

CLORINDA
DOMENICK

PORCHETTA
PORCHETTA

Una
Una

LAURIE

GELFAND
DELEON

Una
Una

BOUTROS

Una
Una

CATHERINE
ROGER
MICHELLE
EMILY

MASON

JUUSA
NIKIA

CRUZ
CRUZ
AUTRY

TOYA

DOOMES

KADIE ANN
KELVIN

WHYTE SMITH
RUSSELL

Una
Una
Una
Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed

Ballot Received After Polls Closed
Certificate Not Signed
Ballot Received After Polls Closed
Certificate Missing
Ballot Received After Polls Closed
Certificate Missing
Ballot Received After Polls Closed
Ballot Received After Polls Closed

Ballot Received After Polls Closed
Ballot Received After Polls Closed

Ballot Received After Polls Closed
Certificate Missing
Ballot Received After Polls Closed
Other
Ballot Received After Polls Closed
Ballot Received After Polls Closed
Ballot Received After Polls Closed
Ballot Received After Polls Closed
Ballot Received After Polls Closed

Una

Certificate Missing

Una

Ballot Received After Polls Closed

19

ME R-L-001556-20 09/02/2020 Pg 20 of 39 Trans ID: LCV20201546837

GEORGE

RICE

WESLEY
JULIA

WRIGHT HOLMES
SILVA

ANNE
DORINE
KWAME
MARGARET

Una
Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed

Una

Ballot Received After Polls Closed

TSOEDI

Una

Certificate Missing

GERTRUDE
FRIMPONG
JONES

Una
Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed

Una
Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed

BARRY

BLENDEN
ETTINGER

Una

Ballot Received After Polls Closed

ABIGAIL
CATHERINE

ETTINGER
HAMILTON

Una
Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed

ROYCE

MOSLEY

WILLIAM

TRAUTMAN

Una
Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed

CINDY

SOUTHERN

Una

Ballot Received After Polls Closed

KEVIN
VERONICA RON
PATRICE

GRAY
KLEIN

Una
Una

Certificate Missing
Ballot Received After Polls Closed

MASCARO
SHUTA
SWICKHUTCHINSON

Una
Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed

Una

Ballot Received After Polls Closed

MONTESANO
CARDENAS
YUMBLA
CARDENAS
DOLOPEI

Una
Una

Signature Does Not Match
Ballot Received After Polls Closed

Una
Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed

AALOK

MEHTA

Una

Ballot Received After Polls Closed

MEUSSA
MARIE

QUINONES VELEZ
JACQUES

Una
Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed

JEAN

DORSAINVIL
OCONNOR

Una

HUNTER

Signature Does Not Match
Ballot Received After Polls Closed

CHERYL
BRIANA
ANTHONY

COLLIER
RIBEIRO
CHAVEZ

JORGE
STEPHEN

MARJORIE

SILENA
DANIELLE
VANESSA
RUBEN
KATTY
EMILE

Una
Una

Ballot Received After Polls Closed

Una
Una

Ballot Received After Polls Closed
Signature Does Not Match

GONZALEZ
BROUGHTON

Una
Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed
Ballot Received After Polls Closed
Ballot Received After Polls Closed

STEPHANIE

KREYL

Una

JACQUES
ROSANA

OUELLETTE
OUELLETTE

Una
Una

DANIELLA

THOM ES

Una

Ballot Received After Polls Closed

HELENA

MARCHWINSKI

Una

Ballot Received After Polls Closed
Party Privilege after the Primary
Election

KANAN

UDESHI

Una

Signature Does Not Match

ANGELA

THOMAS

Una

Ballot Received After Polls Closed

MATTHEW

POPOV

Una

Signature Does Not Match

20

MER-L-001556-20 09/02/2020 Pg 21 of 39 Trans ID: LCV20201546837

KRISTINE
ALTAF

LESCANO
ESSANI

Una
Una

Signature Does Not Match

STEPHANIE

RODRIGUEZ

Signature Does Not Match

KIMBERLY
AMANDA

MAILLEY
LAURICELLA

Una
Una

ANNA
KATHERINE

HAUGHEY
MC LAUGHLIN

Una
Una

Signature Does Not Match
Ballot Received After Polls Closed

SYBIL

SHERMAN

Una
Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed
Ballot Received After Polls Closed

Signature Does Not Match
Ballot Received After Polls Closed

NITA

KLASKOW

Una

MICHAEL

VIEIRA
WALSH
CARTY

Una
Una

Ballot Received After Polls Closed

SARAH
ANN

Una

PRESTON
NINA

ROSS
SHCTURMAY

Una
Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed

LAURA

SLIWAK

ROBERT
NEAL

CHAMBERS
MILDEN

Una
Una
Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed
Ballot Received After Polls Closed

STACIE

WALTERS

Una

CHRISTOPHER
DELORIS
KAREN

BROWN
FLETCHER

Una
Una

Ballot Received After Polls Closed
Certificate Missing

YOUNGER
RUSSELL

Una
Una

BETHEA

Una

Ballot Received After Polls Closed

CRISOSTOMO
ABREU DE
CRISOSTOMO
FUNDERBERK
LUKE

Una

Ballot Received After Polls Closed

Una
Una

Ballot Received After Polls Closed
Signature Does Not Match

Una

JOEL
ZARI
EDWARD

CHUA
LUKE

Una
Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed
Ballot Received After Polls Closed

CLARKE

Una

MARIE
RESHAD

OCAMPO
PARSON

Una
Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed
Signature Does Not Match

JOANN
DENISE
CHARLES

ZEVALLOS
LASKODY

Una
Una

Certificate Missing
Certificate Missing

SAMARITANO

Una
Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed

Una
Una

Ballot Received After Polls Closed

SAMARIA
AUCIA
BUENAVENTURA
HIGINIA
ANTHONY
GUSTAVO

GLORIANA
TANISHA
ARNTZ
STEPHANIE
LAURA

GARRIS
MARTIN
DOUZE
CHAN
BOPP

Ballot Received After Polls Closed

Ballot Received After Polls Closed

Certificate Missing
Certificate Missing
Ballot Received After Polls Closed

Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed

GUGUELMO

LAHARA

Una
Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed

QUINTINA

SINGLETON

Una

Signature Does Not Match

ALYSSA

NICOL

Una

Ballot Received After Polls Closed

21

MER-L-001556-20 09/02/2020 Pg 22 of 39 Trans ID: LCV20201546837

LOUIS
AUGUSTO

NAZAIRE

Una

Ballot Received After Polls Closed

CAPOTE

Una

Other

LENNY

BETANCES

Una

Ballot Received After Polls Closed

REQUELLE
KIMBERLY

SHEFFIELD
MUESES

Una
Una

Certificate Missing
Ballot Received After Polls Closed

AMELIA
ZACKARY

NICHOLS

Una

Ballot Received After Polls Closed

KROMMIE

Una

Ballot Received After Polls Closed

JASON

CALDWELL

Una

ROWENA

ARIAS

Una

SANJANA
ROSAURA

MALHOTRA

Una

Ballot Received After Polls Closed
Party Privilege after the Primary
Election
Ballot Received After Polls Closed

ESPAIUAT RAMOS
OKANTEY

Una
Una

Ballot Received After Polls Closed

QUINONES

Una
Una

Ballot Received After Polls Closed

Una
Una

Ballot Received After Polls Closed

JELANI

Ballot Received After Polls Closed

ANDREA
CHRISTINE
SHARHONDA

DILLON
TOWNSENDA

GRADY
KARINE
PATRICE

TOWNSEND
BARTHELUS
SELLAN

MARITZA
DANNY

SEPULVEDA
GUTIERREZ

Una
Una

JOANNA

LUNA

Una

NATALIA

LOZANO

Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed

LARISSA

DE SOUSA

KESTER

Una
Una
Una

Other
Signature Does Not Match
Ballot Received After Polls Closed

Una
Una

Ballot Received After Polls Closed
Ballot Not Enclosed
Ballot Received After Polls Closed
Ballot Received After Polls Closed
Ballot Received After Polls Closed
Ballot Received After Polls Closed

RUBEN

OUVO
FORTES

ARI
MORGAN

HARRISON
HARMS

Una

Ballot Received After Polls Closed

Una

CORNEUA
NINA
RYAN

MULLER
PARADISO
MORSE

Una
Una
Una

Ballot Received After Polls Closed
Certificate Missing
Ballot Received After Polls Closed

ANGELO

CIULLO

Una

Ballot Received After Polls Closed

IRENE

KATZ

Una

ANDREW

DORSCH
JANOFSKY
JANOFSKY

Una
Una

Certificate Missing
Ballot Received After Polls Closed

RODRIGUEZ
BEWNI

Una
Una
Una

Ballot Received After Polls Closed
Signature Does Not Match

ROZHKOV

Una
Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed

CALOGERO
SAMANTHA

BADAIAMENT1
FRANK

Una
Una

Signature Does Not Match

CYDNEY

BAIN

Una

Ballot Received After Polls Closed

DENNIS
TALIA
ELESE
SARA
OLENA
ALYSSA
GENADIY

FEDAK
DORDONI

Una

22

Ballot Received After Polls Closed

Ballot Received After Polls Closed
Ballot Received After Polls Closed
Ballot Received After Polls Closed

Ballot Received After Polls Closed

MER-L-001556-20 09/02/2020 Pg 23 of 39 Trans ID: LCV20201546837

JAIME

MOYA

Una

Certificate Not Signed

GINA

DI GIOIA

Una

MATTHEW

KASS

Una

Ballot Received After Polls Closed
Party Privilege after the Primary
Election

CAROL LYNN
CHARLES
RANDELL

SAMANSKY

Una

Ballot Received After Polls Closed

LIM

Una

Signature Does Not Match

HENSLEY

CHARLES

Una

Ballot Received After Polls Closed

KEITH
JOSEPH

POOPOR
STEFFA

Una
Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed

DANIEL
MARC

LOWDEN
SHEHATA

Una
Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed

VERONICA

GESSNER

Una

Ballot Received After Polls Closed

JOELLE
SUNIL

MERCADO LAU

Una
Una

Ballot Received After Polls Closed
Signature Does Not Match

Una
Una
Una

Ballot Received After Polls Closed
Signature Does Not Match

KELSEY
CHARLES

HOSMANE
KENNEDY

IKE

TRENT
AZUBUIKE

YOLANDA
COLLINS
CHARLENE

NI NAL
AZUBUIKE
LEONARDO

Una
Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed

Una

Ballot Received After Polls Closed

ANGEUCA

GLOVER

MARIA

NENO

Una
Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed

GIFTY
ALLISON

JONES
CHATEL

Una
Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed

EDWARD

MALLANEY

Una

Ballot Received After Polls Closed

LEONETTE

LEWIS

Una

ARTHUR

WEED

Una

Ballot Received After Polls Closed
Party Privilege after the Primary
Election

PARESH
VINCENT

PATEL
MARTORANO

Una
Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed

BERRY
EVELYN
ANA
DAVID

PIERRE
DE LEON
CASTRO

Una
Una
Una

Signature Does Not Match
Ballot Received After Polls Closed
Ballot Received After Polls Closed

TIFFANY

PIMENTEL
PANGANDOYON

Una
Una

JO ANN

SHUMATE

Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed
Party Privilege after the Primary
Election

MARGARET
SEAN

FANFULIK
LOWE

Una
Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed
Ballot Received After Polls Closed

Ballot Received After Polls Closed

ISABELA

NAVA

Una

JOSE

CARHUAYO

Una

Ballot Received After Polls Closed

AIORA
CARLA

BROOKS
TAYLOR

Una
Una

Signature Does Not Match
Ballot Received After Polls Closed

23

MER-L-001556-20 09/02/2020 Pg 24 of 39 Trans ID: LCV20201546837

ADY

RUIZ

Una

Ballot Received After Polls Closed

NICOLE
CHANCY

MANZELLA
CALLEJAS

Una
Una

Ballot Received After Polls Closed

FRANKLIN

AROCA

Una

Certificate Missing

Ballot Received After Polls Closed

ARIA

SAVADKOUEI

Una

Ballot Received After Polls Closed

TARAY

CAREY

Una

Ballot Received After Polls Closed

LORRAINE
JOSEPHINE

MEDEIROS
MACHADO

Una
Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed

CHANNELLE
JOYCE

CARROLL
GOWDY SMITH

Una
_Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed

ANNA
NITA

VILLEGAS

Una

Ballot Received After Polls Closed

AVICHAL

Una

Ballot Received After Polls Closed

CERA

GOMEZ

Una

CAROLYN RENEE

GARY

Una

MARC ARTHUR

LOUIS JEUNE

Una

Ballot Received After Polls Closed
Certificate Missing
Signature Does Not Match

ELSA
YOLANDA
JOLANDA

SILVA
HAMMOND
Till
TIU

Una
Una
Una

Ballot Received After Polls Closed

Una
.
Una

Ballot Received After Polls Closed
Party Privilege after the Primary
Election

Una
Una

Ballot Received After Polls Closed

PIRO
JULIO
JIBRAN

MOSQUERA
ABSARUUSLAM

FELIPE

ARBELAEZ CASAS

JUANITAMA

BORRERO PARRA

MARY
SOFIA

GOULDSON
HANDZY

ED
ANNA

RONK
RONK

MARINA
EMILY
EVAN

Una
Una
Una
Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed

Ballot Received After Polls Closed
Ballot Received After Polls Closed
Ballot Received After Polls Closed
Ballot Received After Polls Closed
Ballot Received After Polls Closed

Una

Ballot Received After Polls Closed

VINEIS
RONK
MC ELHENY

Una

Ballot Received After Polls Closed

Una
Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed

CYNTHIA

BABETSKI

Una

Ballot Received After Polls Closed

TAYLOR
SHANNON

INGBER
0 DONNELL

Una
Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed

MARK
VALERIE

FRIEDBERG
SKREUA

Una
Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed
Party Privilege after the Primary
Election

DAVID

CRONEN

Una

GABRIELLE

HORN

Una

WILUAM

CONROY

Una

CARLOS

FERNANDES

Una

JOAN

KIMM

Una

Ballot Received After Polls Closed
Certificate Missing
Party Privilege after the Primary
Election
Ballot Received After Polls Closed

PILAR

MARTINEZ

Una

Ballot Received After Polls Closed

24

MER-L-001556-20 09/02/2020 Pg 25 of 39 Trans ID: LCV20201546837

MICHAEL

TOSCANO

Una

AMANDA

DURANTE

Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed

CHEOL
ANITA

CHUNG
LIVESEY

Una
Una

Signature Does Not Match
Ballot Received After Polls Closed

ERIN

ECKARD

Una

HESTER

GLYNN

Una

Ballot Received After Polls Closed
Party Privilege after the Primary
Election

PRADEEP

PITIGALA

Una

Ballot Received After Polls Closed

NISHANIE
HAIHONG

PITIGALA
ZHOU

Una
Una

Ballot Received After Polls Closed
Ballot Received After Polls Closed

SAMANTHA

VOCCIA

Una

Signature Does Not Match

Primary Election Schedule Per Regular Election Statute:
Board of Canvassers are to have results canvassed 10 days after the election.
July 17th
Election contests were to be filed within 12 days after election day.
July 19th
Recounts were to be filed within 17 days after election day
July 24th
Election contest can be filed within 12 days of completion of a Recount.
So far September 1st

With a lack of results as we entered July 24th the 17th day after the election, with
commiserate concerns to protect our right to challenge results we filed for still very far
away were originally expected to be fully canvassed 10 days after election by July 17th.
The Associated Press erroneously called the Election on July 10th with about only 50% of
the-ballots counted and only a 12000 vote difference. Most Press and media stopped
covering the election results on July 16th in an attempt to push me to concede the election.
After it was clear our campaign would wait till results came in fully, Washington Post
started covering the race again.

25

MER-L-001556-20 09/02/2020 Pg 26 of 39 Trans ID: LCV20201546837

Attempt to Recount
Having reason to believe an error had been made in the counting of the vote, Petitioner on
July 27, 2020, filed a Verified Petition pursuant to N.J.S.A 19:28-1, et-seq. seeking a hand
recount and recheck of the VBM and any other paper ballots cast on the election in all
counties and all districts of the state. Election results were fraudulently certified on August
9th. The Attorney Generals office, challenged our right to recount across all 21 counties
and has successfully convinced Superior Court judges to deny our right in all but 3 counties.

Failure of Election Databases and Voter Disenfranchisement
This initial delivery of ballots had large problems across all 21 counties but common
themes included computer errors from Board of Elections that incorrectly attributed a party
designation for an individual. Registered Republicans were sent Democrat Ballots and
upon their contacting the County Clerk were told that the government system stated their
party affiliation incorrectly. Every person who had this problem was allowed to change
their party to the affiliation of choice but were completely disenfranchised for the Primary
election. Protocols for this election are normally public and provided transparently to all,
but that was not the case in this election. The Attorney Generals office on June 25`h,
conducted election interference when they sent the Singh for Senate Campaign a
Cease and Desist letter, illegally claiming that our direction on requesting duplicate
ballots was incorrect. This clearly is inconsistent with N.J.S.A. 19:62-5 Replacement
Ballots which reads "Nothing in this section shall prevent a voter seeking a replacement
ballot from obtaining such a ballot from the county clerk or municipal clerk anytime after ballots

26

MER-L-001556-20 09/02/2020 Pg 27 of 39 Trans ID: LCV20201546837

have been mailed to registered voters pursuant to subsection b. of section 2 of P.L.2005, c.148
(C.19:62-2) and before the day of the election or from mailing a replacement ballot to the county
board of elections prior to the day of the election. L.2005,c. 148,s.5." It is also inconsistent with

guidance on the Camden County Clerk Website, and numerous ballots sent out across the
state.
Cr-)

[Ill,

r----.
mmusu'oi-ol-- : 1400i
taws tuu.t.ar

OFFICIAL
PRIMARY ELECT IOW
MAY ).1020
COUNTY OP OCIAN
L
. 1.0.1110 OrtIrflt104 KAMM
TO COMA-0.4stl. MI.!!

tveSacIt n

fey ,+1
r-

Oeaetbq.a.. Von NIA.Nat..t
For.r.sr imanueed..bwegio.

i

1

.71
.

...111•40110
10•18almat OM.

an: pa". or
orst....rm tri. evy
ya spew:W.
“4.1,4.14-. • 0.1.• o.
L
.ey.I.r.• 11.3111,10 ,1,1011
Irvu
.6.••••

4.0.1.0 ,41.,.

ton......ratro.U.....
.praL, ti lay VoOrs Cosa
Mut:
=Soy vs..C.orma

weillow4640

This Cease and Desist letter was leaked to the press and used to defame and libel me.
Multiple Republican county chairs that supported my opponent used this to publicly ask
me to suspend my campaign to further confuse voters.

No response

was provided on my

call to the Deputy Attorney General that sent the Cease and Desist letter Mr.George Cohen.

27

MER-L-001556-20 09/02/2020 Pg 28 of 39 Trans ID: LCV20201546837

fir

Matt Friedman 17
Sadeldrierirnanili

Hey (itillirshSingh this looks like a
potential problem

4.-24 PM 6/2S/20 haeinnerk

31 Pelmets and cernments 76 I. Ices

This Cease and Desist letter was leaked to the press and used to defame and libel me.
Multiple Republican county chairs used this to publicly ask me to suspend my campaign
to further confuse voters. No response was provided on my call to the Deputy Attorney
General that sent the Cease and Desist letter Mr.George Cohen. Upon calling the phone
number on the cease and desist letter 1 was given no reply. The cease and desist letter was
intentionally leaked to the press including Politico and was used by our political opponents
to confuse the population and give direction to Board of Election workers from counting
our supporters duplicate ballots. We requested information from the Secretary of States
office on the election protocol but it was not provided to us. Same request was made to the
Attorney General's office.

New Jersey's July 7th Primary Election was the second highest turnout in New Jersey
Primary history if taken as a whole. This fact betrays the fact the increase was partisan and
only manifested in Democrat Turnout while Republican Turnout was heavily reduced. It

28

MER-L-001556-20 09/02/2020 Pg 29 of 39 Trans ID: LCV20201546837

was the first primarily, vote by mail primary and used the United State Postal Service to
conduct delivery of the Mail-In Ballots. Mail-in ballots could also, hand deliver to USPS
locations, official drop boxes or be delivered to the county clerks office. Machine voting
was limited only to people that were both disabled and pre-registered to vote at a machine.
If you wanted to vote in person, you had to use a provisional ballot at poll locations. We
requested to know how many Democrat, Republican, and Unaffiliated ballots were printed
and mailed out but no numbers were provided. As per the Secretary of States office they
say approximately 457,000 Republican Ballots were received in this election.
Problems with Delivery of Ballots before and After election:
I personally witnessed problems with delivery of ballots, for example in Burlington
County, I stopped by the Board of Elections office and not a single individual was there to
received the ballots. We went to the 3rd floor where the County Clerks office was to attempt
to have these ballots that were held by what I assume was a USPS worker (he had an
unmarked car and was not wearing a USPS uniform) but they said they could not accept
the ballots.

Only approximately 403,000 Republicans voted for US President and

approximately only 407,000 Republicans voted for US Senate. That means officially
greater than 49,000 or greater than 10% of those that officially cast their ballot did not vote
for the top 2 offices on the ballot. This is more than double the number of votes that did
not vote for the top office in 2016 Republican Primary. We think this is due to man
thousands of incorrectly received ballots where one would either receive a ballot of the
wrong party or would not receive a ballot at all. Approximately 40,000 ballots were
rejected for a number of reasons and though I asked every single county for this specific
29

MER-L-001556-20 09/02/2020 Pg 30 of 39 Trans ID: LCV20201546837

information only one county (Union County) provided a preliminary review of the Rejected
ballots. This contradicts the Democracy Cannon which states "Since Owens, the Democracy
Canon has been applied primarily in three contexts: vote counting cases, in which someone relies
upon the Canon to argue, following an election, for the counting of ballots that have not been
counted because of minor voter error, election official error, or a disputed reading of a relevant
statute; voter eligibility/registration cases, in which someone relies upon the Canon to argue,
before an election, that a voter or certain group of voters who have been told they cannot vote
should be allowed to cast a ballot that will be counted even though election officials have
determined they cannot register or vote because of minor voter error, election official error, or a
disputed reading of a relevant statute; and candidate/party competitiveness cases, in which a
candidate or political party relies upon the Canon (and particularly upon the voters' right to vote
in a competitive election) to argue, before an election, that a certain candidate or party should be
allowed to run in an election or appear on an election ballot, even though election officials have
excluded the candidate or partyfrom the ballot because of minor candidate or party error, election
official error, or a disputed reading of a relevant statute. Vote counting cases are the most
prevalent type of cases relying on the Democracy Canon, but the Canon has been deployed in all
three kinds of cases across a number of states over more than a century." County's did not
furnish the campaign with transparency or information in a timely fashion in violation of
the Powers of a Challenger which reads NJSA 19:7-5 "reads Such challengers shall be the
authorized challengers for their respective political parties and candidates or for the proponents or
opponents of a public question. They shall have the power to challenge the right to vote therein of any
person claiming such right and shall have power to ask all necessary questions to determine this right.
They may be present while the votes cast at any election are being counted, hear and see the ballots counted

30

MER-L-001556-20 09/02/2020 Pg 31 of 39 Trans ID: LCV20201546837

and shall have the right and power to challenge the counting or rejecting of any ballot or any part of a
ballot. They shall be entitled to ask the members of the district boards of election at each polling place, no
more than every two hours, for the official count of how many voters have voted at each precinct, and the
district boards of election shall provide this information as the notice required pursuant to section 1 of
P.L.20I 8, c.110 (C.19:52-3.1) Amended 1956, c.66, s.4; 2018, c.110, s.2." Requests for recount were

filed in all 21 counties, but where our concerns were greatest we were denied. Our requests
for recount, a very common occurrence in elections was denied outright even though we
stated very real concerns with the ability for optical scanners to correctly tabulate a ballot
that was tabulated with clear intent but did not pass through the "bubble" of the ballot. If
a checkmark, an "X" or a voter circled the bubble, an optical scanner would count that a
vote was counted without tabulating a vote for any candidate.
3.

Grounds to Contests the primary election:
a. Malconduct, fraud or corruption on the part of the members of any district
board, or of any members of the board of county canvassers, sufficient to
challenge the result;

i. Upon information and belief Middlesex County Board of Elections
incorrectly state the number of votes cast in their county to 112,429
votes, but internal documents have their initial number at 116,200
ballots and this number should have been increased by an additional
approximately 1500 ballots. (pictured below from page 3 of July 31'
BOE request for extension by Middlesex County BOE)

31

MER-L-001556-20 09/02/2020 Pg 32 of 39 Trans ID: LCV20201546837

previaus election in Middlesex County. Fur the July 7 Primary
Election, the Board received approximately 102,500 mail-in bal1ots
and approximately 14,200 provisional ballots in Middlesex County.
in addition to the unprecedented number of mail-in and
provisional ballots cant in the Primary Election, the statutory
deadline fcr receipt of.emil-in ballots by the Beard 148 hours
after the clone of the polls for mail-in ballots postmarked no
later than the day of the election, N.J.S.A. 19:63-22/, wan
extended by SO 144, i14, to seven days after the close of the
polls, or July 14, 2020 at 8 p.m. That has meant that in order to
ensure that no more than one vote per voter is counted in the
Primary Election, the review of provisional ballot. by the Board
of Election. could not begin until after 8 p.m. on July 14. This
is necessary to ensure that a provisional ballot is not courted
trot a voter who aleo submitted a mail-in ballot to the Board.
Due to the above-cited unprecedented number of mail-in
and provisional ballots received by the Board, and the limited
time provided for the review prucesu required fcr provisional
halloos after July 14, the Board will be unable to complete its
review, canvass and count of all of the mail-in and provisional
ballots received in the Primary Election by the July 24, MC
deadline.

Upon information and belief Middlesex County Board of Elections
has thousands of ballots that were neither processed or counted as of
August 6th.
Upon information and belief 6 other counties did not provide their
final vote totals even on the day the Secretary of State officially
certified the results.
New Jersey SOS BOE illegally certified incomplete election results. I

32

MER-L-001556-20 09/02/2020 Pg 33 of 39 Trans ID: LCV20201546837

called the SOS Board of Elections when news broke that results were
certified and asked if this was true. I was told that, "yes" the results
were certified. I was aware that some counties had not be completed
and asked if there were still counties that had not finalized their
results, the BOE representative told me that there were a number of
counties that had no completed their count but that they had deadlines
and had to certify by that time even though they were complete. I
asked her to send me a list of the counties that did not complete their
vote yet. She said she would contact Donna Barber and have her send
me an email that would show which counties had still not provided
final results. They did not provide me an email with the information
that they said they would. I was told the BOE would just amend their
numbers when they were finalized. This is not the intent of the law
when it comes to certifying an election and skirts the intent of
certification.
b. When illegal votes have been received, or legal votes rejected at the polls
sufficient to change the result;
i. Upon information and belief illegal ballots dated July 8th were

received by the US Postal Service and those votes were counted, while
other ballots dated July 8th were not counted. Some counties counted
some July 8th post marked ballots and some counties did not count any
July 8th post marked ballots.

33

MER-L-001556-20 09/02/2020 Pg 34 of 39 Trans ID: LCV20201546837

Upon information and belief thousands of legal votes were received
that were denied being counted. We have an incomplete listing of
individuals from across the state that expressed extreme frustration
with the disenfranchisement of the process.
Ms.Marta Horvath observed stacks of provisional ballots that were
filled out and not in envelopes in Mercer County. She did not want to
use a provisional ballot and requested use of the machine that was
there and available. She was denied the right to use it and attempted
be re-enfranchised and went in front of Superior Court Judge to ask
why she was not allowed to use the voting machine to vote. She was
told the machine was only for those that are disabled. She said she
was discriminated against for not being legally disabled. As a healthy
person and a disabled person is not a different class of American
Citizen how can the state illegally bar an American Citizen their
choice method of voting, especially if the apparatus was there and able
to be used.

c. For any error by any board of canvassers in counting the votes or declaring
the result of the election, if such error would change the result;

i. Middlesex County — Internal documents I obtained showed that
116,200 mail-in and provisional ballots were received by Middlesex
County Board of Elections. This number did not include 11 bags of

34

MER-L-001556-20 09/02/2020 Pg 35 of 39 Trans ID: LCV20201546837

provisional ballots that we learned were also in MCBOE custody. We
entered the premises and asked to inspect the 11 bags but were denied
access to the bags of ballots. Site Administrator Lynch contacted the
Attorney Generals office and let us know they would not give us
access to the bags on that day but a hearing would be conducted 2
days later where we could inspect the bags with the commissioners.
At the hearing all 11 bags were opened and approximately 1100-1500
ballots were reviewed and voted on. Decision was made to throw
away none of them but they were not added to the 116,200 number
from documents we obtained. Secretary of States Department of
Elections office states that only approximately 112,000 ballots were
cast in Middlesex county. Site Administrator Lynch told me August
6th they completed counting all ballots. BOE workers that regularly
reported to me showed me proof of ballots that were neither processed
or counted as of August 6th and contradicted the words of the Site
Administrator.
Bergen County — illegally barred me from challenging the counting
process. We entered the Board of Elections and were stopped from
witnessing and observing the process.

Republican County

Commissioners attempted to intimidate me and told me I was not
allowed to be in the room.
Monmouth County — illegally withheld cure letters from being sent
35

MER-L-001556-20 09/02/2020 Pg 36 of 39 Trans ID: LCV20201546837

out in a timely manner. Monmouth County would not provide public
information regarding the number of ballots received, counted,
uncounted, or rejected.
Burlington County — illegally withheld cure letter from being sent out
for my voters in a timely manner and then subsequently
disenfranchised an unknown number of voters.
Somerset County —
Essex County
d. For any other cause which shows that another was the person legally
elected;
i. Unaffiliated Voters were disenfranchised by providing a barrier to
vote that was unjustified in majority of counties while Middlesex
County provided both Democrat and Republican ballots to
unaffiliated voters. Under the equal protection clause every county
should have administered the same process but this did not occur
and should invalidate the election.

4.

Petitioner hereby reserves the right to supplement, amend, and plead

additional claims as they arise and assert all right under N.J.S.A. 19:29-5.

WHEREFORE, the Petitioner respectfully requests the court:

A.

Issue an Order setting a suitable time and place for a hearing to review the

objections set forth herein, to commence not more than (30) days after filing of this Verified

36

MER-L-001556-20 09/02/2020 Pg 37 of 39 Trans ID: LCV20201546837

Petition;

Permit the petitioner, his agents, servants, or employees, prior to the date set
for hearing in this matter, to review and examine all books, papers, tallies, ballots,
applications, envelopes, envelope flaps, signatures copy registers, voter books, voting
authorizations, messenger books, rejected mail-in ballots, and any other election materials,
records, emails, reports, receipts or any other documents or election paraphernalia which
may be requested provided said examination occur on notice to all interested persons and
in the presence of the appropriate official and representatives of Petitioner and/or
Respondents;
Permit the parties, their agent, servant or employees, on three (3) days notice,
to take depositions of persons who participated in the election process, served as election
officials, or who may otherwise be believed to have knowledge that would lead to relevant
information with regard to the matter set forth herein in this petition, and grant the a
petitioner and his agents and employees authority to issue subpoenas compelling the
attendance and testimony of witnesses for depositions and trial;
Consider, at the hearing, the allegations of the legal votes rejected and the
illegal votes accepted, the problems with the election process, and such other grounds as
pleaded or may be presented at trial and issue a ruling on said allegations;
Declare, after the hearing, that Hirsh Singh is duly elected; or declare that it
cannot be determined with reasonable certainty who received a plurality of the votes cast
for the position of New Jersey's Republican Candidate for US Senate.
Enter an Order annulling Respondent's certificate of election pursuant to

37

ME R-L-001556-20 09/02/2020 Pg 38 of 39 Trans ID: LCV20201546837

N.J.S.A 19:29-9. In the event Respondent has been sworn into office, remove Respondent
from office, and enter an order pursuant to N.J.S.A. 19:3-25, declaring the office vacant
pending the holding of a special election for the position of New Jersey Republican US
Senate Candidate.
Set aside the results of the election for the position of Republican Candidate
for US Senate for the state of New Jersey, declare vacancy in the position of Republican
Candidate for US Senate of New Jersey pursuant to N.J.S.A. 19:3-25, and order a special
election be held in accordance with N.J.S.A. 19:3-26 and N.J.S.A. 19:2-3
Award Petitioner damages, recount fees, and costs for this application; and
Grant such other relief as may be just and equitable.

By: s/

Hirsh Singh
HIRSH SINGH, PRO. SE.

Date: September 1, 2020

VERIFICATION
I hereby certify as follows:
I am the Petitioner in the foregoing matter.
I have read the contents of the Petition and incorporate same by reference
and state that the contents herein are true to the best of our knowledge, information and
belief. I am aware that if any of the foregoing statement made by me are willfully false that
I am subject to punishment.

38

MER-L-001556-20 09/02/2020 Pg 39 of 39 Trans ID: LCV20201546837

By: s/
Date: September 1, 2020

Hirsh Singh
Filing as Pro Se
P.O. Box 407 Linwood, NJ 08221
9 Wexford Lane Linwood, NJ 08221
(609)335-5289
info@hirshsingh.com

39

Hirsh Singh
HIRSH SINGH, PRO. SE.

APPENDIX 13

SUPREME COURT OF NEW JERSEY

Whereas, pursuant to N.J.S.A. 19:29-2, when any petition contests an
election "voted for by the voters of the entire State or more than one (1) county
thereof, the contest shall be heard by any judge of the Superior Court assigned for
that purpose by the Chief Justice of the Supreme Court";
It is ORDERED that Assignment Judge Stuart Minkowitz is assigned in
accordance with N.J.S.A. 19:29-2 as the Superior Court judge to hear all petitions
filed by Hirsch V. Singh either contesting the July 7, 2020 primary election results
or seeking a recount of the votes cast in that primary election; and
It is FURTHER ORDERED that any and all still pending recount petitions
previously filed by Hirsch V. Singh in the interest of justice and in accordance with
N.J.S.A. 19:29-2 shall be consolidated and heard in conjunction with the petition
contesting the primary election.

Chief Justice
Dated: September 23, 2020

